<html>
<title> - PROTECTING DEMOCRACY DURING COVID-19 IN EUROPE AND EURASIA AND THE DEMOCRATIC AWAKENING IN BELARUS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


               PROTECTING DEMOCRACY DURING COVID-19 IN 
                 EUROPE AND EURASIA AND THE DEMOCRATIC 
                 AWAKENING IN BELARUS

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON EUROPE, EURASIA, ENERGY, AND THE ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 10, 2020

                               __________

                           Serial No. 116-118

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov                      
                       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
43-703PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
                       
	     ELIOT L. ENGEL, New York, Chairman

	     BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
	     GREGORY W. MEEKS, New York               Member
	     ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
	     GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
	     THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
	     KAREN BASS, California		     SCOTT PERRY, Pennsylvania
	     WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
	     DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
	     AMI BERA, California		     LEE ZELDIN, New York
	     JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
	     DINA TITUS, Nevada		     ANN WAGNER, Missouri
	     ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
	     TED LIEU, California		     FRANCIS ROONEY, Florida
	     SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
	     DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
	     ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
	     COLIN ALLRED, Texas		     RON WRIGHT, Texas
	     ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
	     ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
	     CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
	     TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
	     DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
	     JIM COSTA, California
	     JUAN VARGAS, California
	     VICENTE GONZALEZ, Texas                              


			     Jason Steinbaum, Democrat Staff Director
			    Brendan Shields, Republican Staff Director

					      ------ 

	     Subcommittee on Europe, Eurasia, Energy, and The Environment

			     WILLIAM KEATING, Massachusetts, Chairman

	     ABIGAIL SPANBERGER, Virginia         ADAM KINZINGER, Illinois, Ranking 
	     GREGORY MEEKS, New York                  Member
	     ALBIO SIRES, New Jersey		     JOE WILSON, South Carolina
	     THEODORE DEUTCH, Florida	     ANN WAGNER, Missouri
	     DAVID CICILLINE, Rhode Island	     JIM SENSENBRENNER, Wisconsin
	     JOAQUIN CASTRO, Texas		     FRANCIS ROONEY, Florida
	     DINA TITUS, Nevada		     BRIAN FITZPATRICK, Pennsylvania
	     SUSAN WILD, Pennsylvania	     GREG PENCE, Indiana
	     DAVID TRONE, Maryland		     RON WRIGHT, Texas
	     JIM COSTA, California		     MIKE GUEST, Mississippi
	     VICENTE GONZALEZ, Texas		     TIM BURCHETT, Tennessee


	    Gabrielle Gould, Staff Director
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Rutzen, Douglas, President and CEO, International Center for Not-
  For-Profit Law.................................................     8
Laanela, Therese Pearce, Head of Electoral Processes, 
  International Institute for Democracy and Electoral Assistance.    19
Rohozinska, Joanna, Resident Program Director, Europe, 
  International Republican Institute.............................    35
Fly, Jamie, Senior Fellow, Senior Advisor to the President, 
  German Marshall Fund of the United States (Former President of 
  Radio Free Europe/Radio Liberty)...............................    44

                                APPENDIX

Hearing Notice...................................................    73
Hearing Minutes..................................................    74
Hearing Attendance...............................................    75

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

Additional materials submitted for the record from Representative 
  Keating........................................................    76

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record..................    89

 
  PROTECTING DEMOCRACY DURING COVID-19 IN EUROPE AND EURASIA AND THE 
                    DEMOCRATIC AWAKENING IN BELARUS

                      THURSDAY, SEPTEMBER 10, 2020

                           House of Representatives
  Subcommittee on Europe, Eurasia, Energy, and the 
                                        Environment
                       Committee on Foreign Affairs
                                                    Washington, DC,

    The subcommittee met, pursuant to notice, at 11 a.m., via 
WebEx, Hon. William Keating (chairman of the subcommittee) 
presiding.
    Mr. Keating. The House Foreign Affairs will come to order. 
Without objection, the chair is authorized to declare a recess 
of the committee at any point, and all members will have 5 days 
to submit statements, extraneous materials, and questions for 
the record, subject to the length limitations in the rules.
    To insert something into the record, please have your staff 
email the previously mentioned address or contact the full 
committee staff.
    Please keep your video function on at all times even when 
you are not recognized by the chair. Members are responsible 
for muting and unmuting themselves, and please remember to mute 
yourself after you have finished speaking.
    Consistent with House Resolution 965 and the accompanying 
regulations, staff will only mute members and witnesses as 
appropriate when they are not under recognition to eliminate 
background noise.
    I see that we have a quorum present. Thank you all for your 
participation.
    Pursuant to notice, we are holding a hearing today 
entitled, ``Protecting Democracy During the COVID-19 in Europe, 
Eurasia, and the Democratic Awakening in Belarus.''
    We will begin, without objection, by submitting several 
documents for the record regarding the current situation in 
Belarus, including reports that document the horrors inflicted 
by the Belarusian people--upon the Belarusian people including 
a statement by a Belarusian victim that we just received today 
of the abuse by the police where she details the violations of 
her rights and the harm inflicted by security forces on her and 
others who were detained by security forces.
    Additionally, there are statements by multinational 
institutions condemning the violence and electoral fraud to 
underscore the broad consensus around the flagrant abuses of 
power that exist and that we are all watching with great 
concern the government's actions and with the support of the 
Belarusian people.
    One of the leaders of the movement, Maria Kolesnikova, was 
kidnapped earlier this week, and just yesterday, yesterday, two 
members of the Coordination Council, Maxim Znak and Ilya Salei 
were kidnapped as well.
    Ranking Member Kinzinger and I are introducing a resolution 
condemning these actions by the government of Belarus and 
recognizing the incredible bravery and efforts of the 
Belarusian citizens to move toward democracy and holding their 
government accountable.
    I hope that our members will join us in that resolution as 
well.
    To begin with, I would like to start by showing a couple of 
images from the protests. Since there are limitations with the 
video system we are using in terms of being able to show these 
videos, we are showing a few still pictures in lieu of that, 
and you can see from these pictures some of the incredible 
scenes that are occurring in Belarus right now.
    They underscore how critical it is for journalists and the 
press to have access to and record moments like this around the 
world and, importantly, they show the remarkable commitment and 
bravery of the Belarusian people in the face of oppression by 
the State.
    These are peaceful demonstrators, women-led protests. 
Students, children, a Nobel Prize winner. These are not 
security threats requiring foreign intervention. They are 
citizens demanding accountability for their government and the 
freedom to express themselves.
    With that, I will now make an opening statement before 
turning it over to Representative Yoho, who will stand in 
Representative Kinzinger today as the ranking member.
    We begin today with a focus on Belarus and everything 
transpiring there.
    First, because the sacrifice, bravery, and solidarity of 
the Belarusian is coming together for a shared future in their 
country it is nothing short of heroic and it deserves to be 
part of the congressional record to mark this incredible moment 
in their country's history.
    And, second, because Belarus must serve as a reminder to 
all of us about the incredibly difficult work required to live 
in a democracy. We see it here, too, and realize that democracy 
cannot be taken for granted. It takes a commitment by the 
people to keep their democracy healthy and it takes time and 
often support from friends and partners along the way.
    Democracy is not just a result of replacing a corrupt 
leader at the top. It is embedded in the mundane processes, 
institutions, and rules and the daily actions by citizens and 
government officials alike to ensure the system works so the 
rights and freedoms of all people are guaranteed. There are no 
quick fixes to democracy.
    In Belarus, so many people have risked everything. Hundreds 
of thousands risked being detained by the police and suffering 
horrible abuse. Some, tragically, have sacrificed their lives.
    The first part of holding a criminal government accountable 
to its crimes is in no way over.
    Yet, it must still be followed by a crucial second part: to 
develop the institutions, the bureaucracies, and have new and 
greater accountability in the government so that these 
sacrifices do not exist--did not go in vain and so they will 
never be relived again and again.
    The world is watching Belarus now because this movement and 
this moment in history is an opportunity. It is an opportunity 
that has been captured and it has captured our attention and 
our support as well.
    However, what happens is no less important and demands no 
less of our attention if we are truly to honor everything that 
Belarusians have done to get to this moment today.
    What comes next, the hard work of democracy, is really at 
the heart of this hearing today. We have been having 
discussions about democratic backsliding for some time now, and 
we held a hearing in this subcommittee on this subject last 
fall, where former President of Poland Lech Walesa, who is no 
stranger to what it takes to lead a movement, to build a 
democracy, he warned us that we must do the work necessary to 
keep it, not take it for granted.
    Across Europe and Eurasia, we see recent democracies 
struggle in corruption, partisan bickering that prevent that 
government from truly serving its citizens, really, the one and 
only purpose of a government and a democracy.
    We see laws that simply grant governing officials more 
power instead of making their countries more productive for the 
benefit of all their citizens.
    Democracies require fair elections. Undermining elections 
does not only entail the--of holding secret balloting, and 
having ballots thrown out of windows of polling locations, just 
as undermining trust and accountability in democracy does not 
require the most egregious of crimes.
    Today, in the midst of all these challenges to democracy, 
we also find ourselves in a global pandemic. Communities and 
government are being tested in unprecedented ways.
    The pandemic has been terrifying, deeply saddening, 
exhausting, and uncertain in so many ways, and it affects 
democracies in ways that we should be very attentive to, make 
sure--making sure that elected officials are chosen by the 
constituents to chart paths forward that strive to keep all of 
us as safe as possible but that does not necessarily sacrifice 
their rights in the process.
    Unfortunately, yet predictably, what we see is that where 
democracies are ailing before the pandemic, the pandemic only 
provided more opportunities for curtailing rights and 
restricting freedoms, and we also tend to see a less effective 
response to the pandemic itself with more people dying and the 
spreading of viruses to others.
    This is hard daily work we all need to do to maintain a 
democracy, all the way from everyday citizens being informed 
about what their government is doing and demanding, and that 
they receive accurate information back, to every elected 
official from your school board all the way to the head of 
State doing everything in their power to protect people from 
the threats of COVID-19 alongside protecting their rights. It 
can be a difficult balance. But there are guideposts we can 
follow and lessons we have learned to inform how that can be, 
in fact, done.
    So I am pleased to be joined today by our expert panel to 
discuss these issues and how they have played out across the 
region, sharing their experience, what can we learn from those 
experiences.
    And thank you for being here and I look forward to the 
discussion. I now yield to Representative Yoho for his opening 
statement.
    Mr. Yoho. Thank you, Chairman Keating, and it is always 
great to see you, and I want to thank Ranking Member Kinzinger 
for allowing me to fill in for him and for you calling this 
hearing, and thank you for the panel joining us today.
    Since the final days of the cold war, the United States and 
its trans-Atlantic allies and partners have been motivated by 
the vision of Europe, whole and free.
    That vision foresaw a united continent built on a 
foundation of lasting security, peace, shared values, freedom, 
prosperity, and the respect for the basic human rights, held 
together by the rule of law.
    While we have made many tremendous progresses in realizing 
that vision, it is under threat. Today's timely hearing 
addresses two key challenges that undermine this vision: the 
violence from the post-election crackdown in Belarus and the 
COVID-19 pandemic.
    As Europe's last remaining dictatorship under the rule of 
Lukashenko since 1994, Belarus has long seen--has long been 
seen as a final barrier to a Europe whole and free.
    There is no question that the August 9th election in 
Belarus was flawed and corrupt. The Belarusian people have 
flooded the streets to demand that their voices be heard.
    It has now been over a month since the election and, 
despite the violence and terror inflicted upon them by the 
Lukashenko regime, the Belarusians continue to peacefully 
protest.
    They have refused to back down and their calls for free and 
fair elections as well as respect for the human rights are only 
getting louder. The Belarusian people bravely--their bravery is 
truly inspiring.
    This was most recently exemplified earlier this year when 
one of the leading opposition activists, Maria Kolesnikova, 
ripped up her passport when Belarusian authorities attempted to 
forcefully deport her from her own country.
    That shows somebody that is strong on freedom and liberty, 
and will sacrifice whatever it takes to have that for her 
country and I admire that.
    We must support the Belarusian people as they assert their 
right to chart their own destiny. We must also hold the 
Belarusian authorities who are responsible for the post-
election crackdown accountable.
    Toward this end, I am glad to hear that the administration 
is actively working on individual sanctions against additional 
members of the Lukashenko regime.
    Those sanctions must remain on the table until at least two 
conditions are met: all of those unjustly detained are 
released, including American citizen Vitaly Shklyarov, and the 
Lukashenko regime engages in meaningful dialog with the 
Belarusian people.
    As for Russia, the United States must ensure there is no 
question in Vladimir Putin's mind that a Russian military 
invasion of Belarus would be met with severe consequence.
    As Deputy Secretary Biegun made clear in his recent 
meetings in Russia, this is not a contest between East and 
West, but one between the Belarusian people, their ruler, and 
the rule of law.
    I hope to hear more of all the witnesses today on how we in 
Congress can support the democratic aspirations of the people 
of Belarus. And as you said about Lech Walesa talking about the 
struggles of Poland, and he has been through that, it reminds 
me--and that is a truism that is true throughout history 
because Benjamin Franklin said that coming out of the Hall in 
Philadelphia when asked, ``What form of government did you give 
us, sir?'' And he said, ``A republic, if you can keep it.''
    And we know these are messy, but they are worth it because 
they empower the people and protect those basic human rights. I 
hope to hear more from all the witnesses today on how we in 
Congress can support the democratic aspirations of the people 
of Belarus.
    The other threat to Europe whole and free that will be 
examined today is COVID-19 and the democratic setbacks we have 
seen in some countries in Europe and Eurasia amid the pandemic.
    Democracies around the world have put in place 
unprecedented safety measures from emergency declarations to 
restrictions on free assembly to protect their people from the 
deadly virus.
    However, we must ensure these restrictions on civil and 
political rights are not abused by the governments looking to 
consolidate power. I am particularly troubled by the 
restrictions on press freedoms being implemented in certain 
countries under the pretext of preventing the spread of 
disinformation on the virus.
    While the spread of false information on COVID-19 has 
serious potential health risks, the exploitation of these 
restrictions cannot be ignored. I am sure we will hear more on 
this from the minority's witness in the form of the president 
of Radio Free Europe/Radio Liberty Jamie Fly.
    The pandemic has already caused too much pain and 
suffering, and the United States' like-minded allies and 
partners must work together to ensure our shared democratic 
values and rule of law are not another casualty of this virus.
    Thank you, Mr. Chairman, for calling this hearing and I 
yield back.
    Mr. Keating. Thank you very much, Representative Yoho. I 
think your remarks indicate a strong bipartisan concern going 
on in Belarus and what is going on in the region, and I will 
take this opportunity now to introduce our witnesses.
    And I want to thank you for being part of this here today.
    Mr. Douglas Rutzen is the president and CEO of the 
International Center for Not-For-Profit Law. He also teaches at 
Georgetown Law Center and serves on USAID's Advisory Committee 
on Voluntary Foreign Aid and the advisory boards of the OSCE 
Civic Space Observatory, and the U.N. Democracy Fund.
    He previously co-chaired the State Department's Global 
Philanthropy Working Group and served as a legal advisor in the 
Czech parliament. Thank you for being here, Mr. Rutzen.
    Ms. Therese Pearce Laanela leads the Electoral Process Unit 
in the International Institute for Democracy and Electoral 
Assistance. She served as the founding staff member at 
International IDEA and as assistant director for the Democracy 
Program at the Carter Center.
    She served on elections across Africa, Europe, and Asia for 
organizations including OSCE, the EU, and the Carter Center. 
Thank you for being here.
    Ms. Joanna Rohozinska is the resident program director for 
Europe for the International Republican Institute. She 
previously served as senior program officer for Europe at the 
National Endowment for Democracy. Again, thank you for your 
participation here.
    Mr. Jamie Fly is a senior fellow and senior advisor to the 
president at the German Marshall Fund of the United States. 
He's the former president and CEO of Radio Free Europe and 
Radio Liberty.
    Prior to these roles, Mr. Fly served as counselor for 
foreign and national security affairs to Senator Marco Rubio 
and was Senator Rubio's foreign policy advisor during his 2016 
Presidential campaign.
    I will now recognize the witnesses for 5 minutes, and 
without objection, your prepared written statements will be 
made part of the record.
    Mr. Rutzen, you are now recognized for your opening 
statement.

 STATEMENT OF DOUGLAS RUTZEN, PRESIDENT AND CEO, INTERNATIONAL 
                 CENTER FOR NOT-FOR-PROFIT LAW

    Mr. Rutzen. Thank you, Chairman Keating, Congressman Yoho, 
members of the committee.
    It is a privilege to join you today.
    In April, Lukashenko declared that no one in Belarus would 
die of coronavirus. To allay concerns, he advised Belar 
Russians to drink vodka, go to saunas, and drive tractors.
    In Hungary, Orban took a different approach. He admitted 
there was COVID, and he used this as a pretext for an emergency 
law that allowed him to rule by decree.
    Meanwhile, China is using the pandemic to project its 
political influence. When China sent a plane to Belgrade with 
COVID aid, the Serbian president was on the tarmac and kissed 
the Chinese flag. Billboards then appeared in Belgrade with the 
words, ``Thanks, Brother Xi'' written in both Serbian and 
Chinese.
    COVID-19 is not the root cause of Lukashenko's deceit, 
Orban's power grab, or China's projection of political 
influence. But the pandemic exposed and, in some countries, 
exacerbated underlying challenges to democracy.
    In my testimony I will summarize these preexisting 
challenges, I will discuss how COVID accelerated democratic 
decline, and I will conclude with recommendations.
    First, preexisting challenges. According to Freedom House, 
2019 marked the fourteenth year of decline in democracy around 
the world. The challenge is particularly acute in Eurasia, 
where Freedom House classifies zero countries as free.
    And for years at ICNL we have seen considerable pressure on 
the core civic freedoms of association, assembly, and 
expression. For example, in Uzbekistan and Turkmenistan, it is 
essentially a political decision whether citizens can form a 
nonprofit.
    So in Turkmenistan, for example, only a handful of 
nonprofits have been able to form in the last decade. Or 
consider Belarus, where it is a crime to publicly insult the 
president, and this has used to arrest activists. This is a 
dictator's dream.
    So democracy was already in fragile health in various 
countries, and once COVID struck the condition worsened because 
of emergency laws and other measures.
    A few vivid examples. First, a number of countries enacted 
fake news laws. For example, Russia criminalized false 
information about the pandemic, which has been used to restrict 
and stifle independent reporting about the pandemic.
    Second, countries have begun using invasive surveillance. 
In Poland, for example, people suspected of having COVID are 
required to download an app so the government will know their 
location at all times.
    Third, governments are repressing peaceful protests. 
Consider Belarus. Students peacefully protesting are abducted 
by masked security forces and beaten, and this week Lukashenko 
told prosecutors they have all the laws they need to crack down 
on protests. Just like other authoritarians, Lukashenko has 
converted the rule of law into the rule by law.
    Meanwhile, China is working hard to convert a public health 
crisis into a political opportunity, everything from so-called 
mask diplomacy in Serbia to the provision of surveillance 
equipment throughout the region.
    So there are challenges to democracy but there are also 
good practices, and we have seen this in the region in 
countries including Denmark, Germany, Georgia, the Netherlands, 
Sweden, and others, and there are specific ways the U.S. can 
help.
    Three recommendations from my written testimony. First, the 
House should enact H.R. 6986, the Protecting Human Rights 
During Pandemics Act, including provisions to protect 
democratic institutions, civil society, and independent media.
    Two, let us lead by example by enacting reform to our laws 
governing national emergencies and digital surveillance. And 
third, let us focus on Belarus. Let us grant diplomatic support 
bilaterally and multilaterally to forge a path to free and fair 
elections, the release of political prisoners, media freedom, 
and the protection of those courageous activists on the front 
line.
    In closing, democracy is in fragile health in many parts of 
the world. When exposed to COVID, many of these countries 
became high risk for democratic decline.
    In Belarus and elsewhere, authoritarian leaders seem scared 
of the will of their people. They do not want to count every 
vote. They do not want to address why people are protesting. 
Rather, they resort to suppression and repression.
    But there is time to protect democracy and that time is 
now.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Rutzen follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Mr. Keating. Thank you, Mr. Rutzen.
    The chair now recognizes Ms. Pearce Laanela for 5 minutes.

    STATEMENT OF THERESE PEARCE LAANELA, HEAD OF ELECTORAL 
PROCESSES, INTERNATIONAL INSTITUTE FOR DEMOCRACY AND ELECTORAL 
                           ASSISTANCE

    Ms. Laanela. Mr. Chairman, members of the committee, thank 
you so much for this opportunity to address you about the 
impact of COVID-19 on elections in Europe and Eurasia, and by 
choosing this topic and hearing what you have already said you 
are really signalling that you see this pandemic not only as a 
health and economic crisis but also as a governance one.
    And we agree. Together, with other leading democratic 
organizations, including some in this panel, we have issued a 
call to defend democracy and we argue that this pandemic risks 
more than lives and livelihoods. It is threatening liberal 
democracy itself.
    At International IDEA, we are tracking the impact of this 
pandemic through a series of global indexes and I can only 
confirm the previous speakers. We are seeing evidence of 
further democratic backsliding exactly as you have laid out so 
I will not repeat it.
    I will focus on the impact on elections. Since March, 
countries, actually worldwide but also in this region, have 
been scrambling to determine whether to postpone or when to 
hold scheduled elections and how to do so legally, 
legitimately, safely.
    COVID-19 is a stress test for elections. Across Europe, the 
pandemic has placed tremendous pressure on authorities and 
challenged public trust, and that is in the West and the East, 
North and South.
    In response to these pressures, we are seeing examples of 
resilience and resourceful authorities and citizens adapting to 
radical new conditions at breakneck speed.
    In Bavaria, they introduced all-postal elections in 2 
weeks. We have seen examples of voters turning out even more 
than usual in Poland and Montenegro.
    We have seen acceptance of close results in Poland and 
Montenegro as well, and even in North Macedonia. We have seen 
inspiring examples of how special voting arrangements have 
helped at-risk citizens vote safely across Europe.
    But we are also seeing COVID elections creating controversy 
and confusion, and this undermines public trust. We saw anger 
in Poland when the initial plans for an election with an all 
mail-in ballot was introduced without consultation or due 
process.
    We saw the opposition boycotts in Serbia and we have seen a 
decrease in turnout in most of the region except for those 
exceptions I said above.
    Turnout, acceptance of results, and cooperation--these 
indicators of public trust they matter. Organizing an election 
is difficult even under ordinary circumstances: brutal 
logistics, ruthless deadlines, an army of temporary workers all 
under intense political scrutiny.
    Now add a pandemic with the sudden need to introduce 
untested or scaled up voting and health measures, all under 
very tight timeframes.
    These pressures are exposing gaps and weaknesses in legal 
frameworks, incapacity, and in infrastructure, and this is a 
problem because if election authorities fail to deliver the 
elections that people believe in, if the authorities fail to 
safeguard the elections from harm, they lose public trust.
    They lose the legitimacy that is really such a precious 
commodity, because once it is lost it is exceptionally 
difficult to regain again.
    And in Belarus, we have seen how elections without 
legitimacy can be a tinderbox that ignites underlying problems 
of past injustice or deep-seated societal grievances.
    Now, there is no one-size-fits-all answer as to whether a 
country should postpone or proceed with elections or how, and 
there is no one precise mechanism or regulation to ensure that 
elections are safe or fair or credible, because building public 
trust, which has been severely challenged by this pandemic, 
requires not only operational excellence but also a common 
platform where the rules are fair and clear, and most 
importantly, fostering a sense of shared purpose for political 
consensus and consultation.
    We need American leadership right now and we support the 
bipartisan or we encourage the bipartisan congressional 
earmarks for democracy assistance to support the courageous 
people on the ground who are doing it tough right now: the 
election managers, the observers, and the advocates for reform.
    Thank you so much.
    [The prepared statement of Ms. Laanela follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Mr. Keating. Well, thank you very much for your testimony.
    The chair now recognizes Ms. Rohozinska. Thank you for 
being here.

   STATEMENT OF JOANNA ROHOZINSKA RESIDENT PROGRAM DIRECTOR, 
           EUROPE, INTERNATIONAL REPUBLICAN INSTITUTE

    Ms. Rohozinska. Mr. Chairman, members of the committee, 
thank you for the opportunity to address you at this dynamic 
time.
    The following is a summary of my written testimony.
    The COVID-19 pandemic and attendant infodemic exposed and 
exacerbated transparency and governance gaps across Europe and 
Eurasia.
    The pandemic was and continues to be and unprecedented 
stress test for democratic resilience, one that the Belarusian 
regime has failed spectactularly, demonstrating the impotence 
and lack of sustainability inherent in authoritarian 
structures.
    President Lukashenko is opting for repression and 
retrenchment over engagement and dialog. Yet, despite this, the 
Belarusian nation has been borne and we are all in awe.
    What distinguishes democracies is their ability to 
critically self-examine, learn lessons, adapt to become more 
resilient to better serve the interest of the people. Distrust, 
like disinformation, thrives when there is a perceived lack of 
transparency and accountability, and ultimately paralyses the 
State.
    As the number of infections rose, European authorities 
found that they not only had to deal with an evolving public 
health crisis but also with a surge of dis-and misinformation 
that actively undermined efforts to ensure public compliance 
with continued measures.
    By mid-March, the EU's External Action Service concluded 
that the disinformation could have a direct impact on public 
health and security and began more closely tracking and 
reacting to the infodemic, particularly narratives coming from 
Russian and Chinese official and State-backed actors.
    However, there is a positive. There is new impetus to 
improve accountability and transparency, to increase public 
trust in institutions on the national and EU levels.
    The pandemic caused disinformation to jump the proverbial 
fence from a security issue to being understood as posing a 
physical threat to the whole of society and thus requiring a 
whole of society response.
    Crucially, there is an even greater appreciation for the 
need to engage nongovernmental actors both in efforts to push 
back against disinformation as well as to engage them and civil 
society as an important partner.
    Authoritarian regimes like to present themselves as more 
resilient. Yet, COVID-19 likewise exposed governance gaps 
Belarus was unable or unwilling to acknowledge and remedy.
    By continuing to deny the existence of COVID-19 and 
advising the use of vodka as a preventative treatment while 
people were becoming gravely ill and dying, Alexander 
Lukashenko lost public trust and undermined his image as 
benevolent father of the Belarusian. It also directly 
contravened one of the core pillars of his social contract 
whereby State-sponsored benefits are offered in exchange for 
political apathy.
    After 26 years in power, Lukashenko, clearly, lost touch 
with the source of his legitimacy, the Belarusian people. He 
failed to appreciate that human society by its nature is not 
stagnant.
    Belarusian society has transformed, as have its 
expectations toward its leaders. Though the State eventually 
rallied its considerable resources to contain the virus, it was 
too little too late.
    His failure to act created the impetus for civic society to 
civic engagement by nontraditional actors, drawing in the 
business community, notably, the IT sector, and united society 
in common cause.
    Belarusian citizens, for the first time, took to the ballot 
box as a means of political expression. The 80 percent margin 
of victory was too much to swallow. The blatant falsifications 
of official election results as well as every move away from 
post-election dialog further chips away at the regime's 
legitimacy and options.
    The ongoing protests are historic for their size, scale, 
constancy, and duration. The violent crackdowns on protestors 
have exposed the brutality that the regime has been keeping in 
check as it courted the U.S. and the EU.
    Previously, violence and arrests effectively cowed dissent. 
This time it has fuelled it_drawing more people into the 
streets. The role and prominence of women both in the election 
and protests has been a game changer.
    As candidates, muses, and as protestors, Belarus's women 
have shown they are a force to be reckoned with, another 
challenge to Lukashenko's misogynist culture.
    We are witnessing the birth of a new form of civic 
nationalism, rallying around calls for good governance, 
transparency, and accountability as well as State sovereignty 
and independence.
    Though it is not clear how the protests will end, there is 
no going back. The EU and the U.S. must above all respect and 
support the will of the Belarusian people.
    Lukashenko must be held responsible for his choices and 
actions. Coordinating strategies with trans-Atlantic allies 
should be a priority and include calls for dialog, immediate 
release of political prisoners, and support for the political 
opposition's demands for holding new elections under 
international supervision and beginning negotiations on a post-
Lukashenko transition, also increasing long-term support to 
democracy building efforts and introducing targeted economic 
sanctions.
    Support for democracy requires patience as well as long-
term commitment to a vision. This has been made possible with 
the support of Congress to IRI and the family.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Rohozinska follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Mr. Keating. Thank you for your testimony and for 
highlighting the role of women. It is, indeed, a game changer, 
not just in Belarus but around the world, and we need look no 
further than Afghanistan and see the role of women and how that 
has changed their society, how important that is as well.
    So the chair now recognizes Mr. Fly for 5 minutes.

 STATEMENT OF JAMIE FLY, SENIOR FELLOW, SENIOR ADVISOR TO THE 
 PRESIDENT, GERMAN MARSHALL FUND OF THE UNITED STATES (FORMER 
         PRESIDENT OF RADIO FREE EUROPE/RADIO LIBERTY)

    Mr. Fly. Thank you, Chairman Keating, Representative Yoho, 
and other members of the committee. I am glad you are holding 
this hearing today and I appreciate you inviting me to testify.
    I am going to briefly summarize parts of my written 
testimony. The other witnesses, I think, have already done a 
good job of describing the way that authoritarians across 
Eurasia have responded to the pandemic and tried to exploit it, 
as well as the efforts of external actors including China and 
also Russia to take advantage of this moment. So I will skip 
over that.
    I am going to talk a lot about the role of independent 
media during this moment that we are in. In the 21st century, 
the information domain is where powers are attempting to shape 
their narratives.
    It is where authoritarians are fighting to retain their 
power and where masses, as we are now seeing in Belarus, are 
going to organize and overthrow illegitimate rule.
    Given the centrality of information in all of our modern 
societies, it is more important than ever to the fate of 
democracy that we in the United States modernize the tools that 
helped win the cold war and achieve victory over Soviet 
communism.
    And I was reminded by the chairman's comment about Lech 
Walesa about his quote about the organization that I recently 
led, Radio Free Europe/Radio Liberty, when he was asked about 
Radio Free Europe's role in supporting solidarity.
    And he said, ``Would there be Earth without the sun,'' 
which I think is very true today in terms of RFERL's role in 
fledgling democracies across Eurasia.
    Until June I was honored to serve as president and CEO of 
this organization, which is a congressionally funded 
broadcaster that reaches 38 million people across 23 countries 
in 27 languages.
    RFERL and its sister networks play an important role during 
normal times, and during the pandemic have been central to 
providing objective news and information to citizens across the 
region as they try to hold governments accountable for their 
actions.
    What I witnessed while at RFERL was governments from Russia 
to Belarus to Hungary to Central Asia using the pandemic to 
attack the work of an independent press. They attempted to 
criminalize free speech and journalism about the pandemic 
through emergency legislation under the guise of public health 
controls.
    Regimes attempted to justify mass--investments in mass 
surveillance technology. They developed new accreditation 
requirements for journalists, and in countries like Russia, 
government regulation of media content was expanded.
    To counter these renewed threats to the free flow of 
information across the region, I outline in my testimony 
several recommendations.
    First, I think we need to do more to push back against 
authoritarian restrictions on media. We should prioritize this 
issue in bilateral engagements with governments across the 
region and use punitive measures such as sanctions to back up 
our engagement when necessary.
    Second, I spend a significant amount of time in my written 
testimony discussing potential reforms to U.S. international 
broadcasting. The organization that I led, RFERL, is just one 
of several networks that are congressionally funded.
    The taxpayers currently spend about $800 million a year on 
these outlets. Yet, unfortunately, I believe we are still 
falling behind other actors in this space.
    The recent leadership changes at the U.S. Agency for Global 
Media and the arrival of a new CEO of that agency, which 
ultimately led to the removal of all of the network heads, 
including me from RFERL, have put journalists at risk of 
political interference and greater pressure from the 
governments that they are attempting to cover on a daily basis.
    Third, we should demand reciprocity with adversary funded 
and directed media outlets. Kremlin-controlled media like 
Russia Today and Sputnik, and increasingly Chinese government 
media outlets enjoy significant access to Western audiences. 
Yet, U.S.-funded outlets often struggle to get access to 
audiences in Russia and China.
    Finally, we need to build on recent initiatives like 
RFERL's return to Central Europe. Just earlier this week RFERL 
launched a digital Hungarian service, which follows on RFERL's 
recent return to Bulgaria and Romania last year.
    These efforts are important to ensure that the media 
landscape in EU member States and NATO allies is not weakened 
and subject to external infiltration by countries such as 
Russia and China, and I think that the U.S. should do more with 
Europe to cooperate on these projects.
    In conclusion, the importance of the information space, I 
think, has been highlighted, as others have pointed out, by 
recent developments in Belarus. We need to do all we can to 
surge support for independent media in Belarus just as Russia 
is trying to surge support for Belarusian State media.
    We should do more to ensure that the people of Belarus and 
others across the region have access to basic information about 
their government and the policies affecting their lives. 
Redoubling our support for them and freedom of the press is key 
to ensuring a democratic future for this vital region.
    Thank you for your attention.
    [The prepared statement of Mr. Fly follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Mr. Keating. Thank you, Mr. Fly.
    I will now recognize members for 5 minutes, and pursuant to 
House rules all time yielded is for the purposes of questioning 
our witnesses.
    Because of the virtual format of this hearing, I will 
recognize members by committee seniority, alternating between 
Democrats and Republicans. If you missed your turn, please let 
our staff know and we will circle back to you right away. If 
you seek recognition, you must unmute your microphone and 
address the chair verbally.
    I now recognize myself for 5 minutes. We have heard that 
all democracies should critically self-examine and that is true 
of our own country and what we are going through.
    We had hearings earlier this year. We have had a series of 
hearings. But we had one where Ambassador Fried made it clear 
that the way to approach the intervention in our elections and 
the interference in our elections and the attack on our 
elections is to be unambiguous and call people out who are 
doing it.
    We just passed in our full committee a resolution that, 
indeed, did this, pointing out that Russia, not Ukraine, was 
responsible for attacks on our 2016 elections.
    Now, we also had a whistleblower come forward in our 
country from the Department of Homeland Security who raised the 
issue that Russian interference in our election as it was an 
attack on candidate Biden and his mental health was suppressed. 
He was ordered to suppress that.
    So we do this knowing that we have a responsibility here in 
our own country. But looking at Belarus, it is clear all of the 
press has been taken off the board except RT and Sputnik. They 
are left with that as their main source of press and they are 
encrypting other information.
    What can we do to help countries like Belarus, you know, 
deal with this from the outside? How can we deal with from a 
democracy perspective calling out Russia for their interference 
in Belarus and what they are doing and have been doing in 
Europe and Eurasia as well?
    Maybe, Ms. Pearce Laanela, if you want to start.
    Ms. Laanela. I think I am the wrong person to start because 
I think my colleagues know--I have been so impressed by my 
colleagues.
    But let me just--let me tell my perspective and I think 
theirs will be even more important. We do not track 
interference as such, but what we try to do or what we believe 
to be true is to strengthen the institutions that need to 
safeguard.
    So let me explain what I mean. We create institutions for a 
reason in our societies and that is to protect public good, 
something that we value, something that we treasure very, very 
much.
    And so in the case of disinformation, for example, if we 
have institutions that can protect the public good of 
information that is correct or that is part of good and strong 
elections so--I am not articulating this well.
    But if--institutions that are strong, what we are seeing, 
those that are able to safeguard against disinformation, for 
example, they are working in innovative ways because this isn't 
a challenge that existed, really, as much before social media, 
and one of the things that we are seeing is a kind of 
interagency cooperation, a partnership between private and 
public that is really--has not been seen before.
    Let me just take Australia as a case. But the working 
together with social media companies and government agencies 
and security agencies and election officials for rapid reaction 
to anything that comes in, and that kind of seamless 
communication between agencies, that is one of the ways in 
which we can protect----
    Mr. Keating. If I could interrupt and take your suggestion 
and allowing someone else to come in there. The idea of the 
rapid response to this is critical, and that came through in 
our other hearing.
    Would any of our other witnesses like to just amplify their 
comments? Mr. Fly, perhaps?
    Mr. Fly. Yes. Mr. Chairman, I think the challenge we face, 
we have tools. Radio Free Europe/Radio Liberty has a Belarusian 
language service, Radio Svaboda, which has significant 
followers inside Belarus.
    The problem is that Lukashenko, like many other 
authoritarians, have realized that when they face significant 
pressure, they should take the country offline, and Belarusian 
authorities have done that on a regular basis, which makes it 
much more difficult to communicate and allow information to 
spread freely.
    So what they really need, outlets like Svaboda and other 
independent media or access to internet circumvention tools, 
which are also funded by the State Department and the U.S. 
Agency for Global Media.
    But I have not seen yet from this administration a surge in 
financial support. There has, obviously, been moral support 
expressed, but you really need those sorts of tools that help 
media reach their audience and counteract the Russian surge 
that I mentioned during my testimony.
    Mr. Keating. Good. I think this theme will be continued 
with some of the other questions from our members. But I will 
now recognize Mr. Yoho from Florida, the ranking member, for 
his questions.
    Mr. Yoho. Thank you, everybody, for doing this and for the 
great testimony.
    I think this goes to Jamie Fly. Thank you for being here. 
My question to you, are we getting equal access in broadcast 
coverage to Belarus and Russia with organizations like VOA and 
RFERL as we give RT and Sputnik in this country? Are we getting 
the same coverage?
    You said there was 38 million people we reach, and that 
seems, on a world basis of 7 point some billion people, a very 
small percentage, and I just heard you say that we need more 
funding.
    So the first question is, are we getting the same access to 
those countries, Belarus and Russia? I would like to hear your 
thoughts on that.
    Mr. Fly. In Belarus, as I have mentioned just to the 
chairman now, the main problem, I think, has been recently with 
the internet shutdowns. The issue of reciprocity is a major 
challenge in our dealings with Russia. RFERL has a bureau in 
Moscow, some very brave Russian reporters who are trying to 
cover what is going on in their country. They do a great job 
reaching the Russian audience online.
    But for years RFERL has been restricted to only digital 
content. It is not allowed to get licenses to go on radio. It 
is not allowed to provide our 24/7 Russian language network 
current time on satellite packages and these are because of 
regulatory decisions made by the Russian government to block 
U.S. government-funded outlets from reaching the Russian 
people.
    Mr. Yoho. Let me interrupt you there and ask you, I mean, 
isn't that something we can do diplomatically and say, you 
know, we'll allow this, for Russia to come into our country 
with RT but you got to have the same reciprocity. Are we not 
fighting on that front? Is that what I am hearing from you?
    Mr. Fly. I have had these conversations when I was 
president of RFE with the State Department and others and 
encouraged them to have that diplomatic conversation.
    I visited Moscow in January as president of RFE and told 
Russian officials directly that my goal as president was to 
expand our access to the Russian audience and set up more 
bureaus for RFERL and to make sure that we got more Russian 
eyeballs on our content.
    But, ultimately, I do think it is going to need to be a 
government-to-government conversation rather than the networks 
making these arguments to Russian officials and, ultimately, 
right now, the Russian government is moving toward driving 
RFERL and other U.S.-funded outlets out of the country by 
tightening the restrictions on their journalists.
    Mr. Yoho. All right. Let me go ahead and interrupt there 
because I think this is a good moment for Chairman Keating, 
with Adam Kinzinger, and I know I would be willing to sign on 
to this that we need to put pressure on the State Department, 
and I know we cannot use that word quid pro quo but it really 
is.
    If we are going to allow them to broadcast in this country 
because we do have a First Amendment, there has to be a certain 
amount of reciprocity whether you do it on a head count or 
views or on like media, and I think that is something Chairman 
Keating and I would love to followup with you.
    And, Chairman Keating, you brought up something and I 
really appreciate you bringing it up, and it is the challenge 
of media. At some point, there has to be a metric where what 
the media is reporting is true, and I know this is going to 
rattle some people.
    If you have false news going out there intentionally by a 
nefarious organization, there has to be a way to rein that in 
and I have not found a good way to do that. And, I value our 
First Amendment and we have to fight to preserve that.
    But at the same time, there has to be a responsibility in 
media to report accurately so that we do not have this chaos, 
because I know there is organizations that are fomenting chaos 
whether it is coming from Russia or China.
    And one of the questions that I think I had for Mr. 
Rutzer--is that right? Rutner? China's influence you were 
showing in Serbia--is China providing the technology, i.e., the 
cameras, the drones, the facial recognition programs, to 
authoritarian regimes like Lukashenko's to control their 
populace?
    Real quickly. I have got 30 seconds.
    Mr. Rutzen. The short answer is China is providing 
surveillance technology to countries including Kyrgyzstan, 
Tajikistan, Uzbekistan, and Serbia. They also provided a $2 
billion loan to Hungary to construct a railway, which Hungary 
then classified as a State secret in terms of the construction 
contracts.
    Mr. Yoho. Wow.
    Mr. Rutzen. Suspicious. It should be looked into.
    Mr. Yoho. Yes. What about--well, that is not the scope of 
this, but I think that is something, really, we need to look at 
because we know they are doing this. They are doing it in Iran 
and Russia. They are doing it in Venezuela, offering this 
technology, and that is subverting democratic platforms and the 
rule of law.
    And I yield back, Mr. Chairman. Thank you.
    Mr. Keating. Thank you.
    The chair now recognizes Mr. Meeks from New York.
    Mr. Meeks, are you there?
    [No response.]
    Mr. Keating. And we might be having some technical 
difficulties. We might have to circle back to Mr. Meeks.
    Mr. Sires of New Jersey? And we can circle back to Mr. 
Meeks. Okay.
    Mr. Sires. Good morning, everyone. Can you hear me?
    Mr. Keating. Yes.
    Mr. Sires. Can you hear me?
    Well, first of all, I want to thank everyone for this 
wonderful testimony, that this is something I have been 
fighting for for many, many years--freedom of press, freedom of 
expressing yourself in the press--and I see this as a game plan 
by these countries.
    It is a game plan that they implement in the Western 
Hemisphere as well. Some of these dictators now in Venezuela, 
in Nicaragua, are doing the same thing. They choke the free 
press. The independent press they choke. They do the same thing 
in Cuba.
    So when we talk about Belarus, and I will be following this 
whole thing--this whole election very closely, to me, I think 
that was going to happen all along. I think this election, even 
though it took place, they were going to do it anyway because, 
first of all, I do not think everybody has spoken loud enough 
about it.
    You have Europe speaking up. The United States has been 
kind of wishy washy in some of the comments. What we need is 
the entire world, basically, of the free world with one voice, 
and some of the voices are not as loud as they could be.
    And so, you know, we can do all--we can----
    Voice. Mr. Sires, if you could turn your video back on.
    Mr. Keating. Yes.
    Mr. Sires. Oh, it is not on. I am sorry.
    Mr. Keating. Mr. Sires, it had been going in and out, so if 
you could just turn your video back on.
    Mr. Sires. How is that? You see that red face there? That 
is me.
    Mr. Keating. Great. You look great.
    [Laughter.]
    Mr. Sires. Too much sun.
    Anyway, but, you know, over the years I have had, you know, 
many resolutions, bipartisan resolutions, on the Western 
Hemisphere Subcommittee--because I know Ted Yoho is also a 
supporter and many of the others--about the abuses in Nicaragua 
regarding the press.
    But this is the same thing that has happened in Eurasia. 
All these places, they are just, basically, shutting down the 
press and doing whatever they want.
    And, obviously, I think behind all this is Putin. I really 
think that if anybody was to get out of line he would do the 
same thing he did in the Ukraine, because I think he still has 
this idea that--of the Soviet Union. Bring some of these States 
together.
    So where do we go from here when the world, basically, just 
says, says, says, says, but they still do whatever they want? 
There were no--there does not seem to be consequences to some 
of these people that murder and--I mean, you have got Putin 
killing people in other countries, poisoning people. Anybody 
who is in opposition they get rid of. So I really do not know.
    I mean, we can talk and, you know, do all these things. But 
I really do not know what exactly is effective that we could 
do. You can say yes, we can speak up. Yes, we impose sanctions. 
These people are going to do it anyway.
    Look, I was born in Cuba. I came here when I was 11 years 
old. I saw it when I was there how little by little they 
started shutting down the free press, and it got worse and 
worse and worse.
    So anybody have any comment after my tirade?
    [Laughter.]
    Mr. Sires. And, believe me, I am not giving up on the free 
press. I think the free press, it is the only thing that we 
have in this world to save democracies and give people a voice, 
and I am not about to give it up.
    So, Mr. Rutzen, I know you spoke about three things that we 
needed to do. Even if we do those three things, I think these 
people are going to do anything they want.
    I am sorry, but that is just the way I feel. Can you just 
comment on what I just said?
    Mr. Rutzen. Yes, thank you.
    I think your general point is well taken. This is a global 
phenomenon. With the ICNL COVID-19 civic freedom tracker we 
have identified over 90 countries that have amassed emergency 
measures under the pretext of COVID. Many measures overreach.
    What can be done? I am reminded of ``Alice in Wonderland'' 
and that famous passage about six impossible things before 
breakfast, and I am an unrepentant idealist in that sense. I 
think there are things that can be done.
    I think that sanctions are something we should leave on the 
table. I think we need the State Department and AID to have a 
strategy to address democracy in the aftermath of COVID.
    I think we need to work multilaterally and engage like-
minded countries. We need to provide support for the courageous 
activists including through visas. I have additional 
recommendations in my written testimony.
    Mr. Sires. You know, quite frankly, I think in Belarus, 
COVID or no COVID this guy was going to do what he is doing, 
because they have this--they just--they want to hold onto 
power.
    I am sorry, Joanna is it? You know, I cannot tell.
    Ms. Rohozinska. Sorry, if I can--if I could just jump in 
and add something a little bit.
    I have been following Belarus for over 20 years and I kind 
of liken it that it is, like, it is a pot of milk that just 
boiled over. There has been things that have been happening 
under the surface for years. You just cannot see it.
    But when it goes, they can do all they want to oppress but, 
ultimately, sooner or later, the will of the people does come 
through. I mean, it might be a romantic notion. But, frankly, 
we have seen it over and over again.
    I know. You come from Cuba. I come from Poland. So, 
eventually, things do--things do come. It is slow and you have 
to be patient, and I think that will echo what Mr. Rutzen said.
    It has a long-term dedication to programs both working with 
political dissidents but also supporting local media, not just 
international media. There are lots of local journalists on the 
ground. The game changer this time has also been telegrams.
    So it has been new technology. It is not traditional media 
anymore. Everybody was communicating over their phones and that 
got through the internet blockades as well. So it was effective 
and is an effective organizational tool. Moreover, civic 
activists--probably the most striking thing that I saw in the 
footage from the protests was striking gas workers who said 
that they were absolutely furious because the police was 
beating them using their own money--that their tax dollars were 
being paid to authorities that were abusing them.
    The sense of accountability, the sense of that the 
authorities actually have a responsibility to the citizens, I 
have never seen that before and I think that that is probably 
the most hopeful thing for the future because you cannot walk 
that back. You cannot let that--you cannot put that genie back 
in the bottle.
    So I would just urge patience and continued support on the 
side of supporting the countries themselves. This is not 
talking about bilateral or diplomatic ties.
    Mr. Sires. Thank you. I am sorry my time is up. But we 
could be talking here hours about this.
    [Laughter.]
    Mr. Sires. Good job, Jim.
    Mr. Keating. Thank you both for relaying your personal 
experiences here.
    The chair would like to recognize Mr. Fitzpatrick from 
Pennsylvania, and Mr. Fitzpatrick, if you could turn your video 
back on prior to your question.
    Mr. Fitzpatrick. Thank you, Mr. Chairman, and thank you for 
all of you for participating today.
    In 2013 and 2015, you saw large-scale protests in Ukraine 
following what many believed to be a falsification of elections 
by their Federal officials.
    So my first question for the entire panel, do you believe 
that Belarus protests could lead to a revolution similar to the 
one we saw in Ukraine?
    And secondarily, on Tuesday President Lukashenko refused to 
rule out the idea of holding new elections and acknowledged 
that he may have overstayed his time in office.
    Whether or not you see a revolution similar to Ukraine, do 
you think that these protests could lead to an actual change in 
leadership?
    Ms. Rohozinska. So I take it it was a question to me.
    I mean, I think that things have been building up and I 
would say that the similarity to Ukraine was this, was that 
there was also a deep-seated frustration with corruption.
    Here, it is less about corruption but it still meets where 
you have the accountability and transparency aspect of it that 
I was mentioning in my testimony, and I think that the 
frustration with the lack of responsive government and being 
treated like animals, frankly, is what they say, is what 
finally boiled over.
    But there has been--there has been an uptick in protests in 
Belarus if you watch these kinds of things over the past 2 
years, over the parasite tax, for example, which was also--it 
was a special tax that was put on unemployment and to penalize 
people who were unemployed. It was trying to target civic 
activists but it ended up reaching far farther than that.
    So you could see things percolating below the surface for 
quite a long time now. You never know when it is going to blow. 
Here, I think that there was just the COVID underlay everything 
and it mobilized such a broad swath of society that the--that 
the trigger event was finally the elections which, again, you 
know, demonstrating a degree of hubris they decided not to put 
off, right.
    They figured that holding the elections at the beginning of 
August was the best thing to do because there is always a low 
turnout in August, frankly, because people tend to go out to 
the countryside.
    So they simply miscalculated. They did not understand how 
the people were feeling, and here you do have a similarity with 
Ukraine, I think.
    In terms of--in terms of the other questions to going 
forward, you know, you have to appreciate that this is a 
country that has never experienced democracy, ever, which means 
that even the democratic opposition leaders, basically, know it 
from textbooks. They do not know it from firsthand practice.
    You know, Lukashenko himself, ironically, has been 
supporting the notion of sovereignty and independence in the 
face of the Russian State for the past couple of years and he 
only changed his tune a couple of weeks ago when he started 
getting backed into a corner.
    In terms of, you know, his promises of holding new 
elections, I would be wary. He does not have a particularly 
good track record of following through on promises, and so I 
would probably take that as a lesson learned and be extremely 
cautious.
    I, personally, think he is just buying time because he also 
said that he would consider holding new elections after 
introducing constitutional changes, and the constitutional 
changes that he is proposing is to introduce term limits.
    So, I mean, he is still looking at the succession. He 
understands that this is the end of his time in office. I do 
not know if he wants to do that right exactly now.
    However, understanding that this would have been his last 
term anyway he is probably preparing for an exit strategy. I 
think that that is a little bit of a long answer but, I mean, 
again, I think you have to be patient. Probably we will see how 
this plays out.
    I would certainly invest in looking at calling early 
parliamentary elections as being much more significant, because 
once you turn the House, once you turn the Parliament, then at 
least you start building up a degree of political capital that 
can start carrying forward into the governance.
    Mr. Fitzpatrick. Thank you. And with my remaining time, Mr. 
Fly, President Lukashenko is often called Europe's last 
dictator, and in recent weeks I am aware that you have used 
your social media platform to amplify some of the little 
footage that we have seen from the Belarus protests.
    What has been your biggest takeaway from everything that 
you have seen online and heard with regard to human rights 
violations?
    Mr. Fly. Well, I think it is had--I was in Belarus when I 
was president of RFERL last fall. You could sense something was 
going on beneath the surface, I think, as was just noted.
    But it has just been incredibly impressive to watch people 
take their future into their own hands in this massive way for 
the first time ever, really, in Belarus.
    And so, you know, I think, as freedom-loving people who 
live in a republic that was founded on the notion that all men 
are created equal with God-given rights, I think it is in our 
interest to do everything we can to support them, and I do 
think we do need to realize it is going to be rocky and 
uncertain even if there is a transformation post-Lukashenko.
    As Ukraine has shown us, it is very difficult. And so we 
should also be starting, I think, to work with our European 
partners to think through what might come next and how do we 
help an opposition that might actually be put in the role of 
having to try to govern this country, especially given Putin's 
penchant for turning to subterfuge and covert tactics to 
undermine democracies immediately around Russia.
    Mr. Fitzpatrick. Thank you. I yield back, Mr. Chairman.
    Mr. Keating. Thank you. Following a Pennsylvania tradition, 
the chair recognizes Ms. Wild of Pennsylvania.
    I do not know. People have been coming in and out.
    Ms. Wild. Thank you, Mr. Chair. I appreciate it. Really 
appreciate having this hearing.
    I wanted to ask of Ms. Laanela about the effect on 
elections. We know that democracy experts have expressed 
concerns over the potential effects of COVID-19 on the fairness 
and legitimacy of elections.
    According to the International Institute for Democracy and 
Electoral Assistance, at least 70 countries and territories 
around the globe have postponed national or subnational 
elections because of COVID-19.
    Given the need to both protect the public health but to 
also continue holding democratic elections, what are some of 
the electoral best practices that governments have been 
implementing or have implemented to hold elections during the 
pandemic while keeping their citizens safe?
    And if you could include what has the republic's reaction 
been to those new or changed election techniques?
    Ms. Laanela. Thank you, and thank you for quoting--that is 
our organization that you just quoted. So thanks for that and I 
am glad to see that our work tracking the information has been 
used.
    Yes. So as I mentioned in my--in my opening intervention, 
there isn't, like, one silver bullet that fixes everything. But 
here is what we are seeing is that the measures come in two 
clusters for holding elections safely, and that is special 
voting arrangements so that at-risk people can somehow be 
participating, but also health and safety measures in whatever 
it is that they do.
    So those are the two broad categories. That is not so 
simple, though, because each of those comes with the--
especially the special voting arrangements comes with 
vulnerabilities, and so I am going to give you the biggest 
lesson learned, which is political consensus about what needs 
to be done.
    When you introduce things, you know, quickly, the chances 
of going wrong--something going wrong are absolutely there. It 
is really not optimal conditions to introduce new types of ways 
of voting.
    So a political consensus or a sense of this is what needs 
to happen, whether it is going ahead with special measures or 
whether it is postponing for a distinct period of time.
    This is the time for deliberation, for coming together, for 
agreeing, but also the time to communicate to the public why 
these decisions have been taken and what safeguards are in 
place to ensure that things get back on track as soon as the 
pandemic is over.
    This isn't the time to put in permanent measures. This is a 
time to put in temporary measures to get through this crisis 
and temporary measures that kind of everybody agrees makes 
sense and a kind of acceptance that they may not be perfect.
    Ms. Wild. All right. Thank you.
    Thank you. That is helpful. I wish I had more time to 
explore that but I wanted to ask Mr. Fly about journalists' 
ability to continue their work during the pandemic.
    We know that social distancing guidelines and policies have 
been applied in various forms across Europe and Eurasia, and 
journalists and reporters as essential workers have often been 
allowed to continue with their work because their function is 
deemed necessary for a healthy and democratic society.
    But what we are seeing, unfortunately, in some cases is 
that increasingly authoritarian governments have used social 
distancing policies to target journalists and restrict 
citizens' access to information.
    What are some examples of countries that have exemplified 
best practices in terms of effectively implementing pandemic 
response measures that have not impeded the vital work of 
journalists and the free media?
    That is for Mr. Fly.
    Mr. Fly. Thanks. That is--yes, that is an important 
question. When I was at RFERL this was a major challenge. RFERL 
has 20 bureaus across Eurasia, and some of the coverage in 
countries that were in denial about the existence or the 
arrival of COVID in their countries involves going to hospitals 
to talk to doctors and assess what is happening in medical 
facilities and seeing is there a rise in cases that the 
government is forcing medical professionals to call pneumonia 
rather than diagnosing them as COVID.
    And so it puts journalists at risk. So we had to balance 
the need for transparency, providing information to our 
audience, with the desire to keep our people safe.
    When I was there, we had to actually close several bureaus 
during that time because the situation in some of those 
countries got so bad. Governments also used regulations and 
lockdowns to sometimes limit journalists' ability to move 
around.
    I would say--you asked about best practices. In the United 
States and in Europe, it is common practice to exempt 
journalists from even a national lookdown, recognizing the 
important role they play in society.
    And so I would like to see more measures like that by 
governments to allow people to--citizens to keep themselves 
safe but also to allow journalists to do their jobs and to 
report on what is actually going on because, ultimately, that 
helps create a broader safe space within society if people have 
information about what is actually going on with the pandemic 
and know the facts about what is happening in their country.
    Ms. Wild. Thank you, Mr. Fly. I agree with you completely 
and I think that they serve a very essential role, especially 
in times like these.
    Thank you. I yield back, Mr. Chair.
    Mr. Keating. Thank you.
    The chair now recognizes Mr. Trone from Maryland.
    Mr. Trone. Thank you, Mr. Chairman.
    Let us go right back to Mr. Fly, if we could. On August 
29th, over 40,000 protestors gathered in Berlin and many called 
it an anti-corona protest. Hundreds, many from the far right, 
tried to storm the Reichstag, Germany's Parliament.
    These demonstrators say the pandemic-related restrictions 
have infringed on their fundamental human rights. Although the 
demonstration violated social distancing, it was allowed to 
take place. The only folks arrested were those that tried to 
storm the Reichstag itself and they were arrested.
    How would you assess Germany's ability to balance this 
pandemic response versus the protection of fundamental rights 
and freedom, and the same thing that could be instructive to 
us. We have had exactly the same challenges.
    Mr. Fly. Thanks. I am sitting, I do not know, probably less 
than a mile from the Reichstag right now.
    I was not at the protests here in Berlin but, obviously, 
read about them and followed them in the local media. And I 
have only been here in Germany for the last several weeks since 
moving here from Prague after my time at RFERL.
    My sense is the German government, like many of the 
European governments, has handled the crisis quite remarkably. 
There was a significant lookdown imposed very early on in the 
pandemic including in places like the Czech Republic, where 
RFERL is based, and that prevented a significant surge of 
cases.
    What we are now seeing, though, is, obviously, things 
opened up during the summer here in Europe. People took their 
vacations and travelled, although not to the extent that is 
normal here, and I think people got used to that return to 
normal life.
    And so it has been difficult as the cases have begun to 
tick up in many countries in Europe to convince citizens to go 
and take the sort of measures that were necessary in the 
spring.
    And so that is some of the tension that played out here 
with the protests and, obviously, the economic impacts of the 
original lookdown are having a significant impact on that as 
well and my understanding is that those economic rationale were 
a significant part of the protests here in Germany where, like 
in the United States and many other countries, people are out 
of work.
    Their restaurants have closed. Small businesses have closed 
or they have been laid off by their companies, and even though 
the State is trying to do more to support them with 
unemployment, it is still not enough.
    And so that, obviously, is creating a lot of anger about 
the continuance of some of these restrictions, and I assume 
that is going to continue.
    That frustration will grow as we move into the fall and the 
cases continue to increase. And so I think this is going to be 
a struggle throughout modern democracies until we see a 
vaccine.
    Mr. Rutzen. Congressman, may I jump in as well? This is 
Doug Rutzen.
    Mr. Trone. Go ahead.
    Mr. Rutzen. Thank you.
    I think that there is also a broader point here. If you 
look at the sort of responses in places like Finland, Taiwan, 
and South Korea, you find that there is a high level of public 
trust in governmental institutions and I think we cannot 
overlook the issue of trust in the governmental response, which 
goes back to truth and accuracy in conveying information about 
the pandemic and so forth.
    And second, and maybe even more importantly, trust not only 
between citizens and institutions but between citizens. So if 
you look at why we have reasonable responses and voluntary 
compliance in places like Sweden or Denmark, we see very high 
levels of social trust.
    In the U.S. you find quite the opposite. You see a run on 
ammunition and weapons. It is not about the Second Amendment. 
It is a fundamentally different approach toward trusting one 
another that we see in certain countries than the United 
States.
    Mr. Trone. That was my question. We have a severe lack of 
trust in what we are hearing.
    Quickly, Ms. Rohozinska, in 2018, the Turkish Parliament 
passed counterterrorism legislation granting the government 
extraordinary powers that it wielded during the state of 
emergency following the July 2016 coup.
    How has the government used those powers during the 
pandemic and to what extent has there been a focus on domestic 
political dissent rather than on health and safety?
    Ms. Rohozinska. Sorry. The question was on Turkey?
    Mr. Trone. Turkey.
    Ms. Rohozinska. So Turkey, I would probably ask for--I 
would either direct the question to somebody else or I would 
ask for time to consult my colleagues who actually work on 
Turkey for a response to that because, unfortunately, it is not 
a country that I cover.
    Mr. Trone. Anybody else have any knowledge about what is 
going on in Turkey? Have they used the pandemic to extend their 
powers?
    Mr. Rutzen. Yes. Turkey has arrested several hundred people 
for allegedly posting provocative things on social media. They 
are also using the pandemic as an excuse to constrain dissent.
    Mr. Trone. Thank you. I yield back.
    Mr. Keating. Thank you, Mr. Trone, and thank you for 
bringing up Turkey where journalists are being detained and 
where you are seeing the free press truly inhibited in trying 
to speak out.
    The chair recognizes Mr. Costa from California. Thank you 
for participating again.
    I think you have to unmute yourself, Mr. Costa.
    Mr. Costa. How about that?
    Mr. Keating. That is great.
    Mr. Costa. Thank you very much, Mr. Chairman, and members 
of the subcommittee. We have been challenged here like every 
other part of the country and the world with the pandemic but, 
in addition to that, we have had some horrific fires that are 
throughout the West coast, Washington, Oregon, and California, 
and I got a very big fire that is right adjoining my district 
that has no containment. So I have been a bit preoccupied with 
that and other zone areas.
    I would like to focus, and Chairman Keating and a number of 
members of this subcommittee have been very involved with 
myself as the chair of the Trans-Atlantic Legislators Dialogue 
and working with our counterparts with the European Union and 
the Parliament.
    And I have two questions to our counterparts or experts in 
Europe in looking at, one, how do we do a better job together, 
working with the European Parliament in terms of the challenges 
in Belarus right now and coming together with a united effort?
    I know the chairman is very focused on that we are working 
on some resolutions to that degree. But in addition to that, it 
is my hope--I smiled when we talked about one of the witnesses' 
lack of confidence in institutions in our country. My gosh, 
they have really been on the attack for several years now.
    But I think there is an opportunity if the elections turn 
out in a way in November that we hope that we will have 
opportunity to re-establish the bond among the European 
democratic countries that today, with individual conversations 
that we have, I think there is big question marks.
    I saw this morning our colleague, Zarkovsky, interviewed on 
a morning U.S. show and, you know, they are wondering where the 
American leadership is as it relates to our ability to deal not 
only with Russia but the most recent issues with Belarus. And, 
of course, we also have other challenges that we face.
    So who would care to opine in terms of both those efforts?
    Ms. Rohozinska. I mean, I would probably speak to the 
first. I mean, the European Parliament is preparing also--they 
have come out with quite strong resolutions and statements on 
Belarus and I so I think that there is, judging on the--what I 
have been hearing from this committee there is a degree of 
consensus in terms of censuring the Belarusian State.
    I think that it becomes a little bit trickier when you are 
looking--when you are looking at the national levels, that 
within the national parliaments there is more diversity of 
views, I would say, depending on country to country.
    But if you are talking about cooperation with the European 
Parliament, I think that is actually a wonderful idea and it is 
a wonderful opportunity to come together over this because I do 
not think that there is an awful lot of dissenting voices 
thinking that Lukashenko is doing a good thing and that is 
somehow respecting the rights of his citizens. And so there is 
an awful lot of common ground on those terms.
    I will--I will leave the other question to somebody else, I 
think.
    Mr. Fly. I would just add from where I sit, in Europe, 
following some of the European conversation, you know, I think 
the administration has done some good things in this area.
    Deputy Secretary of State Biegun's visit to Lithuania, I 
think, was appreciated. There is a question about whether that 
U.S. engagement should have happened earlier. But I do think 
that there have been some attempts by the administration to 
engage with the Europeans. I do think there is----
    Mr. Costa. How about--how about the movement of troops?
    Mr. Fly. The movement in terms of responding to Russian 
exercises and things like that?
    Mr. Costa. Right.
    Mr. Fly. Yes. No, I think the broader sense in Europe is, 
unfortunately, they feel that the administration and the U.S. 
are letting them lead and on this issue--there may be other 
issues where the Europeans are quite happy to lead.
    But they want the U.S. to be involved and they want the 
U.S. by their side, and it should also be noted that some of 
the strongest allies of the U.S. in Europe, like the Baltic 
States, like the Central Europeans, have really been on the 
leading edge of the European response.
    And so I think they would like this to be a joint approach 
and right now they kind of feel that the U.S. has been much 
more hesitant than many European capitals to engage directly in 
supporting the opposition and their demands.
    Ms. Laanela. I wonder if I could just--quickly, just 
mention the role of the OSCE as something that both Europeans 
and the United States are members of and where this 
particular--the issues that we are discussing now is a big part 
of their work. So I just wanted to mention the role of the 
OSCE.
    Mr. Costa. Well, thank you. My time has expired. I also 
would be interested in the current situation with Ukraine but 
maybe someone else will ask that question.
    Mr. Keating. Yes. Thank you, Mr. Costa, and our heart goes 
out to the people of California who are just----
    Mr. Costa. Thank you.
    Mr. Keating [continuing]. Trying to get through these just 
tragic, tragic wildfires that has just encompassed so much of 
the State and affected lives. But we are--when we get back I 
hope we can work on that. Our hearts go out to you and 
California.
    The chair now recognizes a leader on the human rights 
issues in Congress as well as a strong member of our committee, 
Mr. Cicilline from Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you for 
convening this hearing and thank you to our witnesses for your 
excellent testimony.
    I would like to focus my first question on this area of 
data privacy in the digital space. Obviously, tracking and 
tracing measures are a really critical part of responding to a 
public health pandemic.
    But at the same time, of course, there is deep concern 
about the collection of an enormous amount of very personal 
medical data by governments, particularly governments that are 
run by authoritarian leaders.
    And so I am wondering, you know, as, I think, governments 
and your guys' organizations are sort of struggling with this, 
are there some example that you have seen in Europe or Eurasia 
that you think should be models for how you can balance both 
this public health requirement and protecting governments from 
accessing this information long term with all kinds of 
potentially devastating consequences?
    Mr. Rutzen. This is Doug Rutzen, if I could jump in.
    I think that there are two examples I would note, also in 
my written testimony. One is Norway, where the authorities have 
worked with a private company to develop an app, and use of the 
app is voluntary.
    Users receive clear information about the purpose, storage, 
and nature of the data. There are clear limits on cross 
purposes and users can delete their data at any time.
    Another interesting example is the Dutch draft COVID-19 app 
law, which extensively regulates the use of a COVID-19 app and 
it says that use, again, must be voluntary and, in fact, it is 
illegal for anyone to directly or indirectly require a Dutch 
person to actually use the app.
    So there are actually a number of good example in Europe 
that I think we can build on.
    Mr. Cicilline. Great.
    The next thing I want to ask you about is, obviously, the 
dissemination of false information has been a real problem in 
terms of response to this pandemic and using it both as ways to 
suppress the public and dissent but also to promote bad public 
health policies.
    And, you know, there is tremendous concern about that in 
our own country and the role that these platforms have in terms 
of preventing or at least reducing the likelihood that, you 
know, inaccurate or dangerous public health information is 
disseminated.
    And, you know, are there some examples where you think the 
European Union or other countries that have done a better job 
than the United States in helping prevent the dissemination of 
false information that is resulting in the deaths of thousands 
of Americans that we ought to look at in terms of protocols or 
standards?
    Ms. Rohozinska. So I will probably--I will probably take 
this.
    I mean, I think that the first thing was that they got on 
top of it really quickly, that it was very quickly recognized 
as being a problem that was not limited to a single country.
    And so whether on a single country basis or on an EU wide 
basis, they quite quickly started tracking and trying to debunk 
it. I think that there is a couple of good examples, country by 
country, in which they actually did engage the groups that have 
been, on the civil society side, either fact checking or 
debunking or raising awareness or doing media literacy 
programs.
    And we actually reached out to this community and engaged 
them, on one hand, to help try and track and to nip in the bud 
the disinformation that was flowing through and, on other hand, 
to actually--and Slovakia was a good example, that the ministry 
of health actually paired up with civil society organizations 
to help disseminate good information, right, understanding that 
they had a farther reach and they had a legitimacy that the 
government was shortfall on.
    So it definitely has come back to being that all of this is 
public trust, frankly--that the countries in which there is 
high levels of public trust just simply did a better job 
extending this.
    The other thing that was important to note with the 
infodemic is, again, you know, times of crisis and times of 
uncertainty breeds conspiracies and disinformation, I mean, and 
it does not matter when we are in history.
    We will always find this happening. It is human nature, if 
you want. And so, in a way, the more information----
    Mr. Cicilline. And I just want to--Joanna, if I can jump in 
real quick because my time has run out----
    Ms. Rohozinska. Yes. Yes.
    Mr. Cicilline [continuing]. To ask one more question to 
relate to that. You know, we have seen in our own country the 
exploitation of the pandemic, the dissemination by our 
president of misinformation to voters, the degrading of voting 
from home, the undermining of the Postal Service, the calling 
in question the legitimacy of our elections, the suppressing of 
peaceful dissent by gassing peaceful protesters, attacks on our 
independent media.
    And I am just wondering whether the behavior of our own 
president here in the United States, what kind of impact does 
that have in terms of our global leadership to talk about 
democracy and elections in the face of that.
    Kind of what has been the impact of that? Who wants to--and 
I think we have to acknowledge that reality.
    [No response.]
    Mr. Cicilline. Does anyone have thoughts?
    [No response.]
    Mr. Cicilline. No?
    Mr. Rutzen. You know, I cannot resist.
    [Laughter.]
    Mr. Rutzen. So yes, the short answer is that we need to 
lead by example and we find that bad practices in the United 
States are regularly replicated overseas.
    Whether it is our outdated and no longer fit for purpose 
Foreign Agents Registration Act, which was copied by the 
Russians and misused against even congressionally funded 
nonprofits, whether it is the epidemic of calling legitimate 
journalism_fake news, criticizing independent media and so 
forth._
    We see that, in fact, our bad practices are replicated 
overseas as well.
    Mr. Cicilline. Thank you very much. Thank you, Mr. 
Chairman. I yield back.
    Mr. Keating. Thank you.
    The chair recognizes Ms. Titus from Nevada. If you could 
turn your video on and join us. Thank you for taking part in 
this.
    Ms. Titus. Good morning.
    Mr. Keating. Good morning.
    Ms. Titus. Has he called on me?
    Mr. Keating. Yes.
    Ms. Titus. Oh. Well, thank you--thank you, Mr. Chairman. I 
am still a little not so good with this technology.
    Thank you for holding this hearing. I really appreciate it. 
You know, I serve on the House Democracy Partnership and these 
issues are of great concern to me, and we see so much 
backsliding all around the world and the U.S. is not setting a 
very good example like we have in the past.
    I would just ask if there would be a little more 
elaboration on the whole situation of elections. Public trust 
in elections is so important to securing democracy. The U.S. 
used to send observers to elections in other countries. Now 
some of those other countries probably need to send observers 
to us.
    But I wonder if the panellists could address what are best 
practices, how do we reinstill trust in elections, what is 
happening to election processes in some of these countries 
where we see this regression, I guess?
    Ms. Laanela. This sounds like one for me so I will pick a 
few of the things that you mentioned.
    Observation--thanks for mentioning that, and there are two 
organizations, very, very reputable, and they are on their way 
or so to be observing the American elections in November.
    One is the Organization of American States and the other 
is--both of which you are members of so--and the other is the 
OSCE and their unit which works on democracy and human rights 
called ODIHR.
    So that is--you will see international observers at the 
November elections, and this is excellent practice for building 
trust so we are really--it is a very good thing that you are 
doing allowing observers to your own elections.
    So domestic observation and international election 
observation, key aspects for building trust--that kind of 
external verification that things are Okay.
    But trust is super, super hard to build. I tried to say it 
quickly before. But one thing about trust is its--the 
predictability.
    So it is the ability to do something again and again well. 
So when elections have been held consistently well over time, 
people get a sense that, OK, these people know that they are 
doing. So that is part of it and that is really hard to do if 
you are not well resourced.
    So resourcing those organized elections is kind of--you 
know, even though it is about money but that ties into trust 
because when they--it takes a lot to make them happen and when 
they fail, which they easily can do because the logistics are 
so tough, then that is hard.
    But because the stakes are so high elections are really 
relational, and what many countries have who do it well who 
come from post-conflict, for example, is they discovered they 
have to do the hard relational work to make sure that potential 
spoilers are kept inside the tent.
    So remembering that elections are both operational and 
relational is one way of seeing it. I do not want to use up all 
the time, if somebody else wants to step in. But I am, of 
course, happy to continue with this issue.
    Ms. Titus. And I appreciate that, and you talk about 
building up those resources. I know USAID does a lot of 
election training, candidate training, NGO training about 
corruption in elections. Do we need to reassess how we are 
doing that now or just continue?
    Ms. Laanela. Your people are excellent. I really want to 
say that. I am calling in from Sweden. I am not American 
myself.
    But I have worked in this business for 28 years working in 
different countries in really tough situations, and some of the 
best experts out there are from organizations that are very 
close to those of you when you are normally working in 
Washington.
    So the United Nations as well, based in New York, but also 
organizations like IFES, NDI, our colleagues from IRI, they are 
doing excellent work supported by USAID. So and they have kind 
of got it figured out how to support institutions for the long 
term. So you can trust the people that you are supporting.
    Ms. Titus. So you see that as a good investment?
    Ms. Laanela. Yes. Unequivocally, yes.
    Ms. Titus. They do a lot with very little. So thank you for 
that. Thank you----
    Mr. Rutzen. May I contribute one thought?
    So one concrete proposal, I think in terms of trust in 
elections the key issue will be what happens on election night 
and shortly thereafter. Americans are used to getting the 
results on election night.
    Now that we have postal ballots it is improbable that we 
will have definitive and accurate results that evening. We need 
to inform--this is not a partisan issue--we need to inform the 
American public that if they do not have definitive answers on 
election night it is not that the election is being stolen.
    It is that the process is working well and we may need more 
time to ensure that every vote is counted.
    Ms. Titus. Thank you.
    Thank you, Mr. Chairman.
    Mr. Keating. Thank you, Representative. I would just remind 
Mr. Rutzen too that I think maybe with your last remark it is a 
good idea that we look a little back, you know, into history.
    And my district is the Kennedy compound in Hyannisport, and 
we did have a Presidential election where the candidate, John 
F. Kennedy, went to bed not knowing the results and that we did 
not know those results until the next morning.
    So it might be good to make people aware of that history. 
It is part of our history. It is not that unusual. The most 
important thing is to get it right. So a good point and maybe 
that is worth remembering during that period.
    You know, I would like to just followup on a couple of your 
comments with some last questions.
    Mr. Rutzen, in your remarks you said that what is needed is 
a State Department strategy. So implicit in that, if we have 
one at all, that it needs work. So could you expand on that, 
your statement that we need a State Department strategy?
    Mr. Rutzen. I have enormous respect for colleagues at DRL 
and also at AID that are beginning to address this issue, and 
they do have folks who are working on it. And I think we need 
to elevate it to the level of strategy and we need to look at 
policy and programming in a comprehensive fashion from both the 
State Department and AID to look at the aftermath of the 
pandemic.
    We must also build some sort of resiliency because, sadly, 
this will not be our last pandemic. We will likely face more in 
the future.
    So I think this is also an opportunity for information 
sharing perhaps by the Legislative Branch, maybe through the 
Executive Branch, to share lessons learned on how democracies 
can both safeguard democracy and protect public health.
    Mr. Keating. And to Mr. Fly, some of your comments revolved 
around the necessity of U.S. taking more of a leadership role 
than our allies who are hoping for us to take that role more 
so.
    We have seen Germany step up. Whether it is reacting to the 
poisoning by Putin of Navalny, we have seen them take an 
increasing leadership role.
    Yet, that isn't--you know, I know from my conversations as 
well that there is a great desire with our allies to have the 
U.S. take a stronger leadership role in this regard.
    If you want to comment on that, that would be great, as a 
followup to your comments.
    Mr. Fly. Yes. I think one positive note about U.S. policy, 
even under this administration, I would just start with is that 
in the area of international broadcasting I think we should be 
very proud of what we do across Eurasia because while there are 
European-funded networks like Deutsche Welle, France Medias 
Monde, and BBC, the reach of American and congressional-funded 
broadcasting is much broader across the region and I think in 
some of these countries much more impactful than our European 
colleagues.
    I think there are areas there that we should work more 
together, like I mentioned in my written testimony, in EU 
members States like Romania and Bulgaria and Hungary.
    But, in general, when it comes to democracy across Eurasia, 
I think what we hear from our European partners is they have 
good contacts at the working level. They have a sense of what 
those individuals they are dealing with are trying to advance.
    But across the administration they do not--there is often 
question whether democracy is still a key part of American 
strategy toward the region because of the varying messages you 
hear, especially from the president himself.
    And so that gives some of our partners pause and causes 
them to question should we really put our own equities on the 
line when it comes to the economic relationship we have with 
countries like Russia or further afield with China, or is the 
U.S. going to change its position 6 months from now because of 
a whim at the top.
    And so that is, I think, frustrating many of our partners 
and making it more difficult to cooperate on some of these 
issues.
    Mr. Keating. Yes. Without partners, again, and this is open 
to anyone, but you brought it up, Mr. Fly, as well. The issue 
of working with our allies on sharing intelligence which we do 
in so many other respects so well through our NATO allies. It 
is seamless. It is strong.
    But on these issues of democracy it is not as strong, 
frankly, in my opinion, and when, you know, our allies see that 
in our own country we are suppressing our own domestic 
intelligence, the homeland security intelligence about Russian 
interference directly in our election as it affects one of the 
candidates running for office, what is the reaction there when 
they see this in our own country and are we sharing enough of 
that intelligence with them in this sphere, in the sphere of--
the democracy sphere when we are not doing it at home the way 
we should?
    Mr. Fly. I think that--I did some work on foreign 
interference in American elections prior to going to RFERL and 
I think there have been significant institutional gains since 
2016.
    But this issue of sharing information is key because the 
actors like Russia, China, Iran that are trying to interfere in 
American democracy are also trying to interfere in European 
democracy.
    And so I think you raise a valid point where the Europeans 
do need to have access to information to protect their own 
democracies. They want to discuss best practices and lessons 
learned, and if there is not trust that information sharing is 
not going to happen.
    Mr. Keating. Yes. And I think also that intelligence needs 
calling out the people that are attacking our democracy in a 
very clear and unambiguous way, particularly Russia which, you 
know, given what is public what is public knowledge, now 
clearly is in a realm of their own in terms of their attacks on 
the democratic process in Europe, Eurasia, and in the United 
States itself.
    And the other common theme I will mention is this, and so 
related, and that is the idea of public trust as fundamental to 
democracy and that is where transparency, that is where 
suppression of our intelligence information, perhaps with our 
allied but even at home, is such a disturbing development.
    And I must say this. This hearing dealt with democracies, 
the fragile nature of democracies, the backsliding, and COVID-
19 pandemic being used as a tool not just by Russia but by 
authoritarian regimes to cling to greater power and to usurp 
democracy and the democratic process.
    So I am pleased that we had this hearing. I think we were 
able, sadly, to look at the day-to-day actions in Belarus as to 
what has happened and to let Russia know in a bipartisan sense, 
as was indicated by today's testimony from members and comments 
by members that the U.S. is strongly concerned about what is 
going on in Belarus but also the Russian intervention in that 
respect.
    Our goal as a country is to have Belarus be sovereign, not 
to put our influence over them but to have them be sovereign 
and be able to make their own decisions.
    And putting the whole issue together in terms of the COVID-
19 virus, without public trust, we are not going to be 
successful in dealing with this virus. We are making great 
efforts at trying to deal with it, many other countries having 
much greater success including our allies in Europe dealing 
with this issue than we are here in the United States.
    One of the comments--I forget which one of our witnesses 
said there is maybe a different way of viewing things there 
which, to me, sounded an awful lot like there is greater public 
trust around these health issues in some of these other 
countries than there is in the U.S.
    But let me say this. Even if we are successful moving 
forward with a vaccine, without that public trust the public is 
not going to embrace taking that vaccine and dealing with it.
    So it is so critical even when we have breakthroughs, going 
forward, to have that trust there. So this is an expansive 
hearing, covered a great deal of ground, that put the 
microscope on Belarus but also put the mirror on what is 
happening here in our own country and what we are doing with 
our allies.
    So thank you so much for being a part of this. It is a 
continuing dialog. It is an important one. Democracy is fragile 
and we are naive to think it is not under attack right now in a 
very systemic way.
    So thank you, and with that, I declare the hearing 
adjourned.
    Thank you.
    [Whereupon, at 12:52 p.m., the subcommittee was adjourned.]

                                APPENDIX

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	


                                 [all]
</pre></body></html>
